39500 High Pointe Boulevard | Suite 350
Novi, Michigan 48375
Telephone 248 / 567-7400 | Fax 248 / 567-7423 | www.varnumlaw.com

Richard T. Hewlett

Direct: 248 / 567-7824
rthewlett@varnumlaw.com

February 2, 2021

Honorable Scott S. Harris
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Request for Extension of Time to File Response to Petition
Royal Truck & Trailer Sales and Service, Inc. v. Mike Kraft, et. al.
S. Ct. Case No. 20-575

Dear Judge Harris:
I am counsel for the respondents in this case. Petitioner filed its petition for a writ of
certiorari on July 29, 2020. According to the online docket and pursuant to Rule 15.3 of the Rules
of the Supreme Court of the United States, a response is currently due on February 3, 2021.
Pursuant to Rule 30.4, respondents respectfully request that the time for filing a response be
extended by 30 days, to and including March 4, 2021. This is respondents’ first request for an
extension of time to file a response.
Good cause exists for the requested extension. Our firm was initially retained only to
provide a waiver of respondent's right to respond to the petition and was not retained to respond
to the petition until after the Court specifically requested a response. Apart from this case, we are
retained as counsel in several other matters which have required substantial attention. Salvatore
Vitale, who was lead counsel at the District and Circuit Court levels and is responsible for briefing,
was preparing for trials in two matters prior to their respective last-minute adjournment and
resolution (E.D. Mich Case No. 19-cv-11009; Wayne County Circuit Court Case No. 19-113371DM). We have diligently attempted to meet the Court's deadline for filing an opposition to the
petition. However, an extension of time would better enable preparation of a response that would
be most helpful to the Court. It will also allow time for the Mr. Vitale's admission to the Supreme
Court Bar. I am not aware of any circumstances necessitating a speedy ruling on the petition that
may prevent the Clerk's Office from granting an initial extension as described in your February
2020 Memorandum Concerning the Deadlines for Cert Stage Pleadings and the Scheduling of
Cases for Conference.
Accordingly, respondents respectfully request that the time for filing a response to the
petition for writ of certiorari be extended by 30 days, to and including October 2, 2020. Counsel

Ann Arbor | Birmingham | Detroit | Grand Haven | Grand Rapids | Kalamazoo | Lansing | Naples, FL | Novi

Honorable Scott S. Harris
Supreme Court of the United States
February 2, 2021
Page 2
for the petitioner, Mr. Anthony Sciara, has informed me by email that petitioner does not object to
this request. Please advise if you have any questions.
Sincerely,

Richard T. Hewlett
RTH/tla

